<html>
<title> - WEATHERING THE STORM: HURRICANE MICHAEL'S IMPACT ON NORTHWEST FLORIDA'S SMALL BUSINESSES</title>
<body><pre>[Senate Hearing 116-177]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-177

                    WEATHERING THE STORM: HURRICANE
                MICHAEL'S IMPACT ON NORTHWEST FLORIDA'S
                            SMALL BUSINESSES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 14, 2019

                               __________

      Printed for the use of the Committee on Small Business and 
                            Entrepreneurship
                            
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-543 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------        
        
        
        
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                     ONE HUNDRED SIXTEENTH CONGRESS

                              ----------                              
                     MARCO RUBIO, Florida, Chairman
              BENJAMIN L. CARDIN, Maryland, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
RAND PAUL, Kentucky                  JEANNE SHAHEEN, New Hampshire
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
JAMES M. INHOFE, Oklahoma            CHRISTOPHER A. COONS, Delaware
TODD YOUNG, Indiana                  MAZIE K. HIRONO, Hawaii
JOHN KENNEDY, Louisiana              TAMMY DUCKWORTH, Illinois
MITT ROMNEY, Utah                    JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri
             Michael A. Needham, Republican Staff Director
                 Sean Moore, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Rubio, Hon. Marco, Chairman, a U.S. Senator from Florida.........     1

                               Witnesses

Myhre, Michael, CEO, Florida SBDC Network, Pensacola, FL.........     4
Laidlaw, Col. Brian, Commander, 325th Fighter Wing, Air Combat 
  Command, United States Air Force, Tyndall Air Force Base, 
  Panama City, FL................................................    27
Rich, Aaron, Owner, Aaron Rich Marketing, Panama City, FL........    32
Bense, Allan, Co-Chairman, Rebuild 850, Panama City, FL..........    37

                          Alphabetical Listing

Bense, Allan
    Testimony....................................................    37
Laidlaw, Col. Brian
    Testimony....................................................    27
    Prepared statement...........................................    30
Myhre, Michael
    Testimony....................................................     4
    Prepared statement...........................................     7
Rich, Aaron
    Testimony....................................................    32
    Prepared statement...........................................    35
Rubio, Hon. Marco
    Opening statement............................................     1

 
                    WEATHERING THE STORM: HURRICANE
                     MICHAEL'S IMPACT ON NORTHWEST
                       FLORIDA'S SMALL BUSINESSES

                              ----------                              


                       WEDNESDAY, AUGUST 14, 2019

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                   Panama City, FL.
    The Committee met, pursuant to notice, at 10:30 a.m., in 
Room ATC 303, Gulf Coast State College, Hon. Marco Rubio, 
Chairman of the Committee, presiding.
    Present: Senator Rubio.

OPENING STATEMENT OF HON. MARCO RUBIO, CHAIRMAN, A U.S. SENATOR 
                          FROM FLORIDA

    Chairman Rubio. All right. Today's hearing will come to 
order, the Senate hearing on the Senate Committee on Small 
Business and Entrepreneurship, and I want to thank everyone for 
being here, especially to our witnesses. And I want to have a 
special thanks to the Gulf Coast State College for hosting us. 
We don't quite have these views in Gainesville where I went to 
school, and that is what I will say about that.
    [Laughter.]
    So the title of today's hearing is Weathering The Storm: 
Hurricane Michael's Impact On Northwest Florida's Small 
Businesses. As I do not need to remind anyone in this room, on 
the 10th of October of last year is a date that we are going to 
remember, we are all going to remember, for a long time. It is 
when Hurricane Michael made landfall in New Mexico Beach as 
what we now know was a Category 5 hurricane.
    The eye of the storm passed directly through Tyndall Air 
Force Base, causing nearly $5 billion in damages just to the 
base alone, displacing thousands of Airmen along with their 
families and civilian personnel, and leaving one of the 
Nation's most critical installations frankly crippled. For 
communities in Northwest Florida, the devastation was nothing 
short of catastrophic. Many homes were flattened or completely 
swept away by what was the inconceivable levels of storm surge, 
and, of course, by Category 5 winds. And to this day, many of 
our Northwest Florida businesses remain closed.
    The Small Business Administration's Office of Disaster 
Assistance plays a critical role in offering assistance to 
businesses and homeowners that are impacted by disasters such 
as these. Through low-interest loans, they provide many 
disaster victims and survivors the means necessary to rebuild 
their businesses, their homes, their lives. The three broad 
types of Office of Disaster Assistance loans are the Physical 
Business Loans, the Physical Home Loans, and the Economic 
Injury Loans. And someone one will probably teach me to turn 
this thing off.
    [Laughter.]
    SBA's ODA has had its hands full in responding to the 
string of devastating storms our State has endured just over 
the past few years. So according to the SBA, the Office of 
Disaster Assistance has handled over 64,500 calls from disaster 
survivors in Florida and has received 25,000 total loan 
applications. As of last Friday, August 9th, SBA has executed 
14,672 loans totaling $693 million for victims and survivors of 
Hurricane Michael. Every recovery is unique, and the level of 
devastation caused by Hurricane Michael to the Florida 
Panhandle is unprecedented in many ways.
    Michael's winds also caused heavy losses to several 
segments of Florida's agricultural industry, including crop 
losses and catastrophic damage to production and processing 
structures. And the numbers of debt left behind are staggering. 
Total losses to agriculture are estimated at nearly $1.5 
billion, and total losses to timber stock are estimated at 
almost $1.3 billion. Nearly 347,000 acres of productive forest 
were completely destroyed by the storm's winds, with losses 
ranging between 90 percent and 100 percent. An additional 1 
million acres of forestland experienced severe damage due to 
high wind speeds, with losses around 75 percent. Another 1.4 
million acres experienced tropical storm-force winds, with 
estimated losses of 15 percent.
    This level of devastation from Hurricane Michael will have 
deep and long-lasting impacts on Northwest Florida's--
especially the rural communities. The losses to agricultural 
producers in addition to losses to other business sectors, 
catastrophic damage to residential and commercial structures, 
and damage to critical infrastructure are things that are going 
to reverberate across the region for months, and frankly, for 
years. Florida's communities also experienced health effects 
long after the storm passed over and power was restored. It is 
painful to learn of the continued traumas that children of all 
ages have experienced, and the unforeseen challenges that local 
school districts are now having to take on.
    Seeing the high rate of Baker Acts being implemented after 
the storm is also saddening. It takes strong, local leadership 
to be able to respond to these sorts of challenges, and I am 
incredibly thankful for the teachers and faculty that 
tirelessly work to help their students when many of them also 
lost homes and are also themselves struggling to recover. I am 
also truly grateful for the Superintendent and his team for 
their dedication to our students that ultimately led to a 
Department of Education grant that I was proud to assist with. 
Because of the county's commitment, $1.2 million was recently 
awarded to this district to assist in mental health initiatives 
that are desperately needed.
    Just last week, First Lady DeSantis announced the new 
telehealth initiative that will help 63 schools in Bay, Gulf, 
Calhoun, Jackson, Liberty, and Franklin counties. The new 
portals were installed to coincide with the new school year and 
will provide students with mental health services as well. At 
the Federal level, I want to say it was a frustrating, the 
eight months post-storm period. That is the amount of time it 
took for Congress to pass, and the President to sign into law, 
a disaster supplemental appropriations package that will 
provide Federal assistance to Hurricane Michael survivors. I 
wish Congress had risen above partisan politics in the games 
that are often played up there in order to pass disaster aid. 
It was tied up with issues unrelated to Northwest Florida. 
There is no one that could question, at the time, that there 
was an immediate need for the Federal Government to assist our 
communities. I suppose it was better late than never, but even 
late, there was damage that was done post-storm by these games 
that were played.
    And sadly, in Northwest Florida survivors here became pawns 
in a shameful political game to divert attention away from an 
important issue. Thankfully, there was some good news during 
this painful period. Within weeks of the storm making landfall, 
the Vice President visited Tyndall and made a commitment to 
rebuilding the base. Tyndall will be the Defense Department's 
next-generation base to receive the world's most advanced jet 
fighter, the F-35 Joint Strike Fighter. President Trump also 
recently visited. I happened to be there for that visit. He 
visited Tyndall, and he reiterated the commitment that had been 
made to by the Vice President to rebuild Tyndall and to do so 
that it would be better than ever. This means the local economy 
will play a pivotal role in the reconstruction and will benefit 
for decades to come through local defense contracts and 
indirect spending.
    Small businesses will have the greatest opportunity to take 
part in this effort, and I have no doubt that they will 
outperform expectations and Tyndall will be back and stronger, 
and more important to our national security than it has ever 
been. With the disaster supplemental now law, the equally 
important work of implementation must be carried out. And so 
we, in our office, will continue to work every day with the 
Administration and with the Governor and others to ensure the 
disaster money serves the needs of Northwest Florida. But, I 
think today's hearing provides us with an important opportunity 
to hear from local business leaders about the impacts this 
devastating storm had on small businesses and to ensure our 
recovery efforts are effectively coordinated from the Federal 
to the State, to the local levels.
    You know, far too often after disasters and these storms 
like Michael, when the waters all the way and the winds stop 
and something else breaks on the news, the media outlets turn 
and go somewhere else, not a local media of course but the 
national media. They kind of turn and go somewhere else. And 
left behind are the victims of disasters who are left to pick 
up the pieces of their lives, often without the sort of 
attention that could drive Government action. But I hope 
today's hearing will continue to underscore a very important 
reminder for everyone in this community. That you are not 
forgotten. That this important and beautiful part of Florida 
will not be renamed the Forgotten Coast.
    The small businesses in Northwest Florida that provide 
families with dignified work and a sense of community will not 
be forgotten, and certainly not by my office. Tyndall Air Force 
Base, its service members, and their families will also not be 
forgotten. And I made it our task to make sure that that is the 
way it happens, and you will not be forgotten. So I want to 
thank our panel. We will begin--let's begin with Mr. Myhre, 
right? That is the right way?
    Mr. Myhre. Myhre.
    Chairman Rubio. Myhre. Okay. Mr. Myhre, CEO of the Florida 
Small Business Development Center Network under the University 
of West Florida's Office of Economic Development and Engagement 
located out of Pensacola, Florida. Prior to this, he was the 
Minnesota State Director of The Office of Entrepreneurship and 
Small Business Development and led the Minnesota Small Business 
Development Network. He is a graduate of the University of 
Minnesota's Carlson School of Management. We are curious to 
hear about hurricanes in Minnesota. Never had any?
    Mr. Myhre. No. A few blizzards.
    Chairman Rubio. You know, I won the Presidential primary in 
Minnesota. Some of the smartest people in the world were there.
    [Laughter.]
    My second favorite State. But anyways, thank you for being 
here and thank you for offering your testimony.

    STATEMENT OF MICHAEL MYHRE, CEO, FLORIDA SBDC NETWORK, 
                         PENSACOLA, FL

    Mr. Myhre. Thank you, chairman, and thank you for the 
invitation to testify today and your determined leadership in 
Washington to represent and ensure that our primary economic 
contributors and job creators have the resources they need to 
support their success. You know, exiting the recession of the 
early 1970s, Congress recognized that small businesses were 
vital to our Nation's economic recovery, just as they have been 
in every economic downturn before and since.
    Congress conceptualized and created SBDCs, places where 
existing and aspiring small businesses could go to access the 
intellectual capital of our Nation's best and most 
entrepreneurial colleges and universities, thus providing them 
with greater opportunity for sustained success and economic 
prosperity. Today, with nearly 5,000 professionals and 900 
offices, there is an SBDC network in every State and U.S. 
territory, the Florida SBDC being the largest with 45 offices 
and nearly 250 professionals serving every square mile in every 
urban, suburban, and rural community across our great Nation. 
And all of that actually started here, in the Panhandle, at the 
University of West Florida when it became one of the eight 
original SBDC locations in 1976.
    Since that time, UWF has remained true to its commitment of 
service to advance the regions in our State's economy by 
nurturing and supporting small businesses. It remains the 
headquarters of the Nation's most regarded SBDC, and what has 
evolved to become Florida statutorily designated the principal 
business assistance organization for small business in our 
State. At the Florida SBDC, we believe we create unimaginable 
possibilities of prosperity for small business, and in turn, we 
believe we create meaningful economic impact and growth for our 
State that benefits every citizen. And we do this by pulling 
together that intellectual capital, experience in the resources 
that small businesses need to overcome barriers, challenges, 
and obstacles, and turn them into competitive advantages and 
growth opportunities.
    We achieve mission success by providing our State's most 
important economic contributors, small businesses, with 
confidential professional consulting delivered by certified 
professional business consultants and specialists focused on 
one thing, creating a better Florida for all by helping 
businesses grow. And best of all, we provide that consulting at 
no cost to the small business. However, when a disaster 
strikes, our focus shifts from business growth to business 
survival. One of the areas I take greatest pride in is our work 
following a disaster. We are often saving dreams and lifelong 
work, sometimes, generations of labor. The Florida SBDC serves 
as a primary State agency on the State Emergency Response Team, 
and in that capacity, we commit to numerous responsibilities 
which are outlined in my written testimony, but I will touch on 
two of the most important activities in the recovery process.
    One of the primary responsibilities in the aftermath of a 
disaster is the coordination of Federal and State recovery 
resources for small businesses, including the establishment of 
business recovery centers, or BRCs. BRCs are standalone 
locations separate from FEMA established Disaster Recovery 
Centers or DRCs. Standalone BRCs are important because they 
provide small business owners with direct access to dedicated 
business disaster specialists versus generalists, that serve 
both individuals and businesses in DRC locations. BRCs also do 
not have the same demand as DRCs; therefore, small business 
owners don't have to compete with citizens seeking individual 
assistance. See, the sooner a business can get the assistance 
and resources they need, the sooner they can reopen and begin 
putting their employees back to work, avoiding potential loss 
of workforce and a prolonged dependence of individuals on 
Government assistance.
    In collaboration with the Florida Department of Economic 
Opportunity and SBA, we were able to establish 10 business 
recovery centers within 10 days after Hurricane Michael well 
before FEMA was able to stand up its first Disaster Recovery 
Center in the region. The Florida SBDC also maintains two 
mobile assistance centers. MACs is what we call them, that can 
be deployed to serve standalone workstations or BRCs, and the 
most adversely impacted disaster areas where physical 
facilities are not available. No other SBDC in the country has 
these assets.
    During Hurricane Michael, both the Florida SBDC MACs were 
employed full-time and stationed in multiple communities 
throughout the Panhandle, including Blountstown, Lynn Haven, 
Marianna, Mexico Beach, and Panama City. Without them, neither 
SBA nor the SBDC would have been able to reach or serve these 
communities as quickly and as broadly as we did. Now, recently 
the Federal Reserve Bank completed a report on disaster-
affected firms, which the Florida SBDC collaborated. Among the 
findings, the study found access to funds in the weeks, months, 
and years after a disaster influences the ability of small 
businesses to survive and to minimize disruptions, highlighting 
the need for immediate, short-term capital to bridge the gap 
following the storm. The report commended the Florida Small 
Business Emergency Bridge Loan program and highlighted it as a 
best practice for other States to support greater small 
business recovery and resiliency following a storm.
    The Florida SBDC assisted the Florida Department of 
Economic Opportunity in the administration of the Florida's 
Small Business Emergency Bridge Loan program, a State-funded, 
short-term, interest-free loan intended to provide quick, vital 
capital that helps bridge the gap between the time of the 
disaster and a business' ability to secure long-term 
assistance, such as the insurance proceeds, or a private loan, 
or an SBA Business Disaster Loan, which can take months to 
procure. As part of the loan process, a Florida SBDC disaster 
loan specialist provides personalized, hands-on assistance 
throughout the entire process. From the time of submission of a 
completed application, to loan closing, and distribution of 
funds is an average of five days. Sometimes it is as little as 
three days. Again, quick, vital capital. We closed 588 
emergency Bridge Loans following Hurricane Michael, helping 
small businesses and farmers secure more than $34 million in 
emergency capital to make payroll, make repairs, replace 
equipment, purchase supplies and seeds, and other business 
needs to get them back in business quickly.
    Additionally, the Florida SBDC also provided substantial 
support that resulted in helping small businesses access over 
1,200 SBA Business Disaster Loans for nearly $120 million. So, 
according to FEMA, roughly 40 to 60 percent of small businesses 
do not reopen following a disaster. In Bay County alone, there 
are over 18,000 small businesses with less than 20 employees, 
which comprise 86 percent of all employers in the county. Only 
five businesses in the county have more than 500 employees. So 
it truly is a small business county. In addition to creating 
three out of every four new jobs and employing more than half 
the private sector, these small businesses account for half of 
the over $8 billion economy that exists in Bay County. So this 
begs the question, could Bay County afford to lose 20 to 30 
percent of its economy?
    So Mr. Chairman, in closing, we already know that small 
businesses are imperative to the economic success of Florida, 
especially following a major disaster event like Hurricane 
Michael and in a relatively rural region like Florida 
Panhandle. The small businesses in this community are its 
citizens, the Floridians and the Americans who are from here, 
live here, and most of all, with a little help and a hand up, 
the dedication that will lead to the way to rebuilding this 
community.
    The Florida SBDC is a leader with the reputation for being 
the First Responders for small businesses following a disaster 
event. We will always be committed to being on the front lines 
following a disaster. Therefore, it is imperative that we work 
together with the committee to provide small businesses with 
the resources they need to recover, rebuild, and establish a 
sense of normalcy and a path for growth in the long term, in 
the days weeks, months, and years ahead.
    Mr. Chairman, I look forward to working with you, the 
committee, and the staff of the committee to ensure that 
America's SBDCs, but most importantly the Florida SBDC, has the 
necessary resources and the capacity to do just that.
    Thank you.
    [The prepared statement of Mr. Myhre follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rubio. Thank you, and before taking on our next 
witness, I neglected to mention some distinguished, important 
partners in this endeavor. They are here with us today. I see 
Jimmy Patronis, our State's CFO is here, who in addition to 
having statewide responsibilities is still very much strongly 
linked to Northwest Florida. We were just talking on the phone 
on the way over here earlier and thank you for being a part of 
this today. And Mayor of Panama City is here. Mayor, thanks for 
being here as well. We appreciate it. And the Superintendent, 
thank you for being here, sir. We appreciate it very much. And 
even--is the City Manager still here, Mr. McQueen? There you 
go. Thank you guys for being here.
    As I said, this disaster response really is vertically 
integrated, and it involves, at the Federal level, some role to 
play, but as you have outlined, having strong local 
partnerships and State partnerships across the border is so 
critical. And whatever progress we have made and continue to 
make would have been impossible without them being in the lead 
here. So you have got a great local community and we thank you 
all for being here and being a part of this. Colonel Brian 
Laidlaw is going to be our next witness. He is the Commander of 
the 325th Fighter Wing Air Combat Command at Tyndall. The 325th 
is the largest F-22 fighter wing in the Air Force, consisting 
of more than 4,400 personnel in 52 fifth-generation aircraft.
    As the installation Commander, he supports the 23,000 
Airmen, civilians, contractors, and families who call Tyndall 
Air Force Base home. The Colonel was a distinguished graduate 
of the U.S. Air Force Academy in 1997. Upon completion of Euro-
NATO Joint Jet Pilot Training at Sheppard Air Force Base in 
Texas, he served in multiple fighter assignments flying both 
the F-15 Eagle and the F-22, and, in addition to his flying 
assignments, he was a legislative fellow in the U.S. Senate.
    He attended the National War College, spent two years in 
the Office of the Secretary of Defense staff as a Fighter 
Program Analyst, and operationally he has deployed multiple 
times to the Middle East. So thank you for being here and for 
your service to our country.

 STATEMENT OF COLONEL BRIAN LAIDLAW, COMMANDER, 325th FIGHTER 
WING, AIR COMBAT COMMAND, UNITED STATES AIR FORCE, TYNDALL AIR 
                  FORCE BASE, PANAMA CITY, FL

    Colonel Laidlaw. Thank you, sir. Senator Rubio, thank you 
for being here, and for inviting me to testify today before the 
Senate Committee on Small Business and Entrepreneurship on 
Hurricane Michael's impact on Northwest Florida's small 
businesses. I would like to start off by publicly expressing my 
sincere appreciation to the Bay County Chamber of Commerce, led 
by their president and CEO, Ms. Carol Roberts. I think that Ms. 
Roberts would agree with me that we have inherited from our 
predecessors a strong, symbiotic relationship between a long-
standing military base and a growing community. This 
relationship gives us, and those we serve, a tremendous 
opportunity to make things better for future generations lucky 
enough to call Bay County home.
    This community's support for Tyndall AFB is quite, 
literally, award-winning. As you are aware, the Association of 
Defense Communities named Bay County as one of five members of 
its 2019 class of Great American Defense Communities. You do 
not win this award by having just one good year. This 
prestigious award was decades in the making. The strong 
relationship between Tyndall and the community has only grown 
stronger in the aftermath of Hurricane Michael. Thank you to 
the Bay County Chamber of Commerce, especially its Military 
Affairs Committee, and to the Bay Defense Alliance for all you 
do to support Tyndall Air Force Base. When Hurricane Michael 
made landfall as a rare Category 5 storm last October, it dealt 
a devastating blow to our area's small businesses and the base 
alike.
    The storm left roughly half of the base's 484 buildings 
either completely destroyed or so badly damaged that they are 
too costly to fix. Nearly all of the buildings that did survive 
the storm required varying degrees of repair. Despite the 
extensive damage to the base, over the last ten months, our 
Airmen implemented countless, innovative, temporary fixes to 
bring their missions back online, consistent with our Air Force 
Secretary's direction. With the exception of our F-22 and T-38 
flying operations, much of which we are conducting out of 
Eglin, and our non-commissioned officer academy, which we plan 
to stand up sometime next year, we have fully resumed all of 
our missions at Tyndall.
    We have back at Tyndall 73 percent of the military and 
civilian Airmen that we had pre-Michael, 85 percent when we 
count our people at Eglin. Some have moved back into recently 
repaired facilities, like our Air Traffic Control Tower, our 
1st Air Force Headquarters, and our Air Battle Manager 
schoolhouse. Others will continue to work in temporary, modular 
facilities and sprung shelters until we rebuild their permanent 
structures. As you are aware, Tyndall Air Force Base has a 
significant and enduring economic impact on this region. As we 
both recover and rebuild the base, we expect that economic 
impact will continue for the foreseeable future.
    We last completed a formal Economic Impact Analysis in 
2017. This 2017 analysis was consistent with each of the two 
previous studies in 2011 and 2014. In fact, over the course of 
three straight economic impact studies covering the seven years 
preceding Hurricane Michael, Tyndall Air Force Base 
consistently registered an estimated economic impact on our 
local community of approximately $600 million per year. The 
U.S. Department of Commerce developed the standard factors we 
use to compute this estimated impact. These factors consider 
three major categories. First, the annual payroll for all of 
our employees; second, our annual expenditures on things like 
construction, services, materials, equipment, and supplies; 
and, third, an estimated dollar value of the indirect jobs we 
create. In 2017, Tyndall spent $371 million on payroll and $150 
million in annual expenditures.
    Additionally, Tyndall created an estimated 1,908 jobs worth 
$75 million. In 2017, the total estimated economic impact from 
Tyndall Air Force Base on the surrounding communities was $596 
million. In 2019, Tyndall's economic impact will be much 
higher. We do not know exactly how much higher until we get the 
final numbers at the end of the fiscal year. At this point, 
both payroll and value of indirect jobs created appear to be 
consistent with historical estimates for a combined total of 
about $400 million. However, and as expected, our annual 
expenditures category this year will be much higher. This is a 
direct result of Hurricane Michael recovery efforts.
    We estimate we will execute over $1 billion on facility 
repairs, supplies, utilities, and other services across the 
base before the end of the fiscal year. This estimate does not 
include the military construction projects needed to rebuild 
what Tyndall lost in the storm. The estimate for these projects 
is approximately $3 billion. The future is bright for Tyndall 
Air Force Base and for our community. Just last week, Vice 
President Pence reaffirmed the Administration's commitment to 
rebuilding the installation. Our Acting Air Force Secretary 
Donovan also announced that recently completed Air Force 
analysis confirmed last December's decision to bed-down up to 
three squadrons of F-35A fighters at Tyndall, with the first 
aircraft slated to arrive in 2023.
    This decision bodes well for the installation's continued 
and significant economic impact on the businesses in our area. 
Opportunity is ours for the taking. I would like to thank you 
again, sir, for the invitation to testify before the committee 
this morning, and I look forward to your questions.
    Thank you.
    [The prepared statement of Colonel Laidlaw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rubio. Thank you. Our third witness is Mr. Aaron 
Rich who is the owner of Aaron Rich Marketing, a business he 
started by himself back in 2013. Since then, the business 
portfolio grew to 12 employees by last year. His downtown 
Panama City office was significantly damaged by Michael, and 
Mr. Rich successfully utilized the SBA loans in the aftermath 
of the storm. Thank you for being here. We appreciate it.

 STATEMENT OF AARON RICH, OWNER, AARON RICH MARKETING, PANAMA 
                            CITY, FL

    Mr. Rich. Yes, sir. Thank you. I appreciate you never 
forgetting us. That is sincere from the folks in our town. In a 
lot of ways, I think we have felt forgotten, but it is nice to 
know that you have not, sir. So thank you for having us here. 
Prior to Hurricane Michael, our business was a rapidly growing 
company that provides services for digital marketing and IT 
solutions to a wide range of commercial and non-profit clients.
    My company was founded as a single person company in 2013 
and we had grown to 12 employees over our 3 business units at 
the time of the storm. Our business units are Aaron Rich 
Marketing, which specializes in digital marketing including 
website development, graphic design, social networking, and 
SEO. ARCITECHX is an IT consulting firm that supports small to 
medium businesses throughout the region with hardware, 
software, network administration, and server management needs. 
Low Voltage Cabling Contractors is a limited energy specialty 
contractor that provides Ethernet, CCTV, audio, and other low 
voltage wiring in new and existing construction.
    As a result of the growth we were experiencing, our needs 
in the prior months to the storm had led us to invest in an 
office in downtown Panama City that required a full renovation. 
Our business is often oriented toward taking something that is 
unrefined and in need of help and the office that we found was 
no different. It was in perhaps the most blighted block of our 
downtown and the facility needed a reboot. One week before the 
storm, we handed our contractor the final punch list on our 
state of the art, fully renovated office space. As we all are 
well aware, October 10th wreaked havoc across our region and 
decimated most of the structures within the city. I consider 
ourselves one of the lucky ones that we sustained lesser damage 
than many. Albeit, that damage still included losing 
approximately 25 percent of our roof with damage across other 
parts of the roof, collapsed ceilings, significant loss of 
equipment, loss of fencing, downed trees, as well as other 
damage throughout the building.
    We were lucky. Afterwards, my staff worked not just to 
secure their homes and family's needs, but my IT staff worked 
countless hours to try and restore businesses with temporary 
networks so that their businesses would have as much continuity 
as possible. Since it was unchartered territory from a 
technical standpoint, many of the solutions had to be developed 
on the fly. Several of our clients we supported in this time 
were important in the storm response efforts including 
contractors, infrastructure-related organizations, and medical 
facilities. As I soon found out, working through the insurance 
claim process would be an arduous one.
    Without the capability to make phone calls and get internet 
connectivity, basic communication with the insurance companies 
was extremely prohibitive. Even once a basic level of 
communication was obtained weeks after the storm, it became 
clear that the insurance process would be a long-term fight 
that many of us still fight today. Knowing what challenges were 
ahead, I had concerns for the financial well-being of my 
staff's families as well as my ability to retain those 
employees who were vital to the operating business. I run my 
business pretty conservatively and still I could see what was 
coming with the lack of income from unpaid AR. Some of my 
clients were completely out of business because their 
facilities were destroyed, and some would be experiencing 
significant delays to regain operations.
    I still today carry an abnormal amount AR revenue but 
manage it and retain all but one employee that has since been 
replaced. After discussion with the SBA loan programs, with 
local SBA Specialists Johnny Branch and Len Eichler, I decided 
that we might be able to utilize the SBA program to help with 
the business restoration and working capital. While I had a 
fairly good understanding of what documentation was required 
from being a loan officer earlier in my career, I still found 
the loan application process to be extremely involved given the 
circumstances. Had I not had this career experience, I would 
have found the loan process to be quite intimidating.
    I can certainly see why some people in a disaster situation 
would just give up on the SBA loan program and go a different 
direction. Even gathering the information needed was difficult 
because some of the documentation required was lost in the 
storm when the office was damaged, as well as having weeks of 
problems with internet connectivity. The window of opportunity 
for applying to these programs seemed to come and go too 
quickly. I do think that extending the application deadline 
relative to the level of disaster would be a reasonable 
approach. Disseminating information about the programs was 
difficult because of the lack of communications, and then the 
application process being a lengthy one did not leave potential 
loan applicants much time to react.
    I was, however, able to work through the process, and my 
wife and I eventually closed on the loan in mid-December 2018 
after putting our personal home and office as collateral. That 
was, however, not the end of my issues in becoming whole as a 
business again. Prices for renovations were exponentially more 
than when we renovated a few months before the storm. For 
example, roofing quotes we received post-storm to pre-storm 
were over double the cost. Contractors were also getting backed 
up for months on projects, especially local contractors that we 
knew and trusted. Predatory contractors came into the 
marketplace and we started hearing horror stories about people 
being taken advantage of all across town.
    Furthermore, I received a small disbursement from the SBA 
after the loan closing and did not receive an additional 
disbursement until early March 2019. By that time, I had come 
out of pocket as much as possible, but some repairs had to be 
delayed. We are still today awaiting completion on our non-
essential repairs such as our back awning of our building and 
fencing due to a backlog of contractor scheduling. If we were 
able to get SBA loan disbursement faster, our recovery would 
have most certainly been swifter. Our SBA advisor seemed to be 
helping us through the process and we immediately provided her 
with the necessary documentation as soon as she requested.
    I believe it is just a tremendous amount of red tape that 
causes it to be slower than it should be, sir. In the end, we 
were able to utilize the SBA loan funds to keep the business 
operational, and it was a program that helped us to find relief 
in this difficult time. I certainly appreciate your willingness 
to discuss the SBA loan process and to take to heart the 
constructive feedback that we have as individuals that have 
been through this experience.
    Thank you, sir.
    [The prepared statement of Mr. Rich follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rubio. Thank you. And our last witness, last but 
not least, is a former colleague of mine, actually my 
predecessor in the Florida House of Representatives, the 
Speaker, Mr. Allan Bense. Well known to many of you, actually 
great story. You know, before he became Speaker, I was 4 years 
away from it. We sat next to each other on the floor and as is 
often the case, especially I did, when you are still running 
for Speaker, you are wandering the floor to talk to the other 
members, just make sure everyone is still on board. And so 
oftentimes, you know, he knew how I was going to vote. And so 
you press each other's buttons. I can say that now that we are 
out, but that year he voted on my behalf so often, I think I 
was runner-up for Bay County legislator of the year.
    Mr. Bense. No, you won it. You won it.
    [Laughter.]
    Chairman Rubio. I do win. Okay, good. And I am here to 
collect my prize. No, I am kidding. But he is here for two 
reasons. The first, of course, is that he is the Co-Chair of 
Rebuild 850, and the other is I wanted to force him to wear a 
suit and tie once in a while. Nowadays, one of the things he 
bragged about, not too long ago, when he went back to the 
business sectors is he did not have to dress up like us every 
day, he could sort of--but it is great to have you here. Thank 
you for agreeing to be a witness, and it is always great to see 
you.

  STATEMENT OF ALLAN BENSE, CO-CHAIRMAN, REBUILD 850, PANAMA 
                            CITY, FL

    Mr. Bense. Mr. Chairman, Senator, Mr. Speaker, I appreciate 
your inviting me to speak today. It is awfully kind. I don't 
know which role, which title, but we will stick with chairman 
today. But thank you for coming. Everyone in Bay County and all 
the surrounding counties appreciate you being here. I do not 
have prepared remarks, but I am not nearly as good as you on 
the cuff, but we learn a little bit as time goes on.
    And I appreciate your staff coming. Nick, Jake, Harry, 
Lauren, thank you for being here. Came down all the way from 
Washington and you have got a great staff. I have had a chance 
to interface with them. I also appreciate Mayor Brudnicki for 
being here today. Will Husfelt, Superintendent of Schools, and 
our beloved CFO, Jimmy Patronis, and also the City Manager of 
Panama City, Mark McQueen, General Mark McQueen. I was 
mentioning to him earlier, my worry about General McQueen is he 
so well qualified, I am afraid he is going to leave. So hang in 
there, General. We love you, man. We love you. Rebuild 850----
    Chairman Rubio. Hate to interrupt but we could take away 
his passport to make it harder for him----
    [Laughter.]
    Just an option.
    Mr. Bense. You are good. Rebuild 850 was formed subsequent 
to the hurricane. You know as well as anyone that this part of 
the State really is--we are not as wealthy as other parts of 
the State and we are not as well-known as other parts of the 
State. My son-in-law, Will Weatherford, called me and said we 
need to do something to help Northwest Florida that has been 
affected by the hurricane and we concocted Rebuild 850 along 
with former Congresswoman Gwen Graham.
    The purpose of Rebuild 850 is to fundamentally raise money 
and awareness and get volunteers to bring resources to the 
areas that are affected by the hurricane. Fundamentally, we 
were trying to raise money. We raised somewhere between 
$500,000 and $1 million. By the way, if you have a check, make 
it payable to Volunteer Florida, which is a great organization. 
Volunteer Florida then takes these dollars and earmarks them 
toward the affected counties, and they are distributed to the 
Salvation Army, the Red Cross, etc., other not-for-profit 
agencies who are helping people. So anything anyone can do to 
help us bring more money, we are wide open. We have more money 
to raise, and it has taken a while to get things moving.
    I want to talk about a couple of other areas. Number one, 
our schools. The number of homeless students in Bay County 
Schools alone went from 750 to over 5,500 homeless students. We 
clearly have a terrible housing issue, an acute housing issue 
in Northwest Florida, and we have significant problems with 
mental health issues out there, not just among students, but 
amongst the entire community. The Superintendent was telling me 
we have $167 million in the Federal budget that is allocated 
for education and we have not had the opportunity to receive 
any of it yet. So if you can put a word in on that, Mr. 
Chairman, we would certainly all really appreciate it. The 
biggest issue is our workforce. I am a business. I was at 
McDonald's about a month ago, about 8:30, 9 o'clock and the 
lobby is closed. So I said, why? They cannot get workers. I 
mean they cannot get workers and they are paying $12, $13 
dollars an hour.
    Now, they opened up later, but the point is I personally 
could hire 100 people tomorrow if I had qualified workers. The 
pay is good. The problem is it is very difficult because of the 
housing issue for employees to move and live in Bay County and 
other counties that have been affected by the hurricane. We are 
hurting. The average working man, working woman are having a 
very, very difficult time. I will get through it. I just moved 
back to my house month and a half ago, and I will be okay, but 
there are a lot of people that are hurting out there. A lot of 
people hurting. If you go to a convenience store, guys and gals 
take a look around. There are some folks that are really having 
a hard time. Not just convenience stores, but everywhere it is 
tough. It will be three to five years before we really 
ultimately recover.
    I think the cities and counties need to be thoughtful and 
deliberate in how they plan for recovery, and they are doing 
just that. It is tough because everyone wants everything done 
now. They want to see their homes rebuilt. They want to see 
Government offices rebuilt immediately, and it is very, very, 
very difficult to do. So biggest issues out there, from a 
business perspective, is the workforce. We need all we can do 
to improve our workforce.
    Thank you, Colonel, for all you are doing at Tyndall. You 
are doing a fantastic job, and Senator, Tyndall Air Force Base 
is vital to our area. And I know you have been down here at 
least half a dozen times, perhaps more. You are sponsoring 
legislation on the Hill that is helping our area, and I can 
tell you, on behalf of everyone in this room, thank you for 
what you are doing. We really appreciate it.
    Having said that, again, thanks to the staff for being 
here. We really appreciate it, and you have got a great staff, 
and if you have any questions, feel free to ask.
    Chairman Rubio. Thank you. I appreciate all four of you 
being here. I have some questions, and some of them will 
overlap. But I want to say, so, about a month ago in early 
July, the week of the Fourth of July, we spent about six days 
just on a family vacation just down the road in Walton County. 
It was striking as you drive West, you can sort of see almost 
the area where the storm came through because suddenly the 
trees are standing up, and one of the things that we are 
keeping an eye on very closely is getting some of that money 
down to the, you know, from FEMA to the State, from the State 
to the local jurisdictions to do the debris clean up because we 
are reminded that we are in the middle of a hurricane season.
    There is nothing but the grace of God standing between us 
and a storm next week, God forbid. And so the existence of 
debris on the ground, even in some places now, poses an ongoing 
threat, not to mention the strain that it has placed on local 
Governments. And I wanted to mention that CFO Patronis and I 
were just talking about that earlier, some of these smaller 
jurisdictions and mid-sized jurisdictions are operating under 
tremendous financial constraints given the money they had to 
put out already just to get the basic operations up and 
running, and I think it is an important point to make that when 
FEMA--just on the FEMA side not to mention the agriculture's.
    But on the FEMA side, when it pushes that money, it sends 
it down to the State level, which then has its own internal 
process. And the purpose of it is good, to avoid somebody 
showing up five years from now and saying you have got to send 
us back half the money. We got to kind of find a way to get 
that done without the time constraints. We are hearing a lot of 
great announcements about Federal funds being disbursed. A lot 
of those announcements you are reading in the state are for 
storms that happened two, three years ago. It cannot take three 
years, particularly when the local jurisdiction has had to take 
out lines of credit, in many cases, just to operate and going 
into budget cycle here now in August in many places.
    So, Mr. Myhre, I will begin with you. How would you say 
this, and we now know it was a Category 5, right. You know, it 
is funny a lot of people on the ground were saying, if there is 
a stronger hurricane than this, I mean, we want to know about 
it. So there is a lot of anecdotal testimony given to us by 
folks that this was much stronger than what people before said 
it was and now we know it, now that all the data is in. But how 
was this storm different from the other disasters that you and 
the Florida SBDC network had experienced and responded to in 
the past?
    Mr. Myhre. Well since the fall of 2016, you know, Florida 
has experienced four hurricanes, with Irma being the largest of 
the four from a size perspective covering most Florida, coming 
right up the spine of Florida. Also, you know, measuring in 
large severity. However, not all Category 5 are the same. If 
this could measure in ways of--offer a different scale, this is 
a 10 in comparison to Irma. Irma certainly created great 
devastation across all of Florida, but its strength was spread 
over a much larger geographic area.
    This particular hurricane was much more condensed, and it 
built much faster, and it really built unexpectedly to many of 
us that were sitting in the State Emergency Operations Center 
just 48 hours before, not expect anything more than a Category 
1. So the preparation for it was not necessarily there. The way 
that we can expect some of the hurricanes that build off of the 
Atlantic is they are crossing the Atlantic. We can predict and 
project, you know, what their strengths are going to be and see 
that for days and days before they actually arrive.
    This one also, in the sense of where it actually struck 
being a relatively rural area, it just simply wiped out a large 
geographic area of rural Florida in the Panhandle, and it 
maintained that strength as it pushed all the way up through 
the Panhandle. I think most Floridians expect that once it hits 
the shore in a sense, once it hits the land, that it is going 
to dissipate. It was still a Category 3 when it got to the 
Georgia border.
    So we are talking about 90 miles inland and it still was 
quite, you know, heavy and strong. So I don't think the people 
in Marianna, for example, expected that it was actually going 
to be as strong as it was. So responding to those particular 
businesses, in those particular areas it was extremely 
difficult, especially in the rural areas, and you know, God 
bless, you know, Gulf Power and the response to the particular 
hurricane and restoring power or bringing power back to those 
that could receive it very quickly.
    And the areas in which they served was phenomenal. It was 
close to a miracle. However, in those other rural areas that 
were not served by Gulf Power or those other, you know 
utilities that could get there as quickly as Gulf Power and its 
resources could, it took a long time for those businesses to 
actually get back those utilities that were necessary for them 
to reopen. And that was extremely devastating to those 
businesses.
    Chairman Rubio. Yes. I think you touched on one of the 
things and that is one thing is when a storm hits anywhere, it 
is bad. When a storm hits somewhere and actually directly 
targets the economic engine of the region, it has a much longer 
impact, whether it is terrorism or agriculture or military 
installations. Not to just hit an area, but actually goes after 
or impacts sort of the engines that drive the economy. That is 
where you have these lingering effects that we are trying to 
deal with.
    I wanted to touch another point you made, you said, 
according to FEMA, roughly 40 to 60 percent of small businesses 
do not reopen following a disaster. As we look at that number, 
what would you say are some of the primary obstacles, primary 
challenges that lead to this statistic being so high?
    Mr. Myhre. So I quoted the Federal Reserve report earlier 
and the number one reason is not physical damage, it is 
actually the foregone revenues, not the assets, that are lost 
to the business that causes the greatest damage.
    Chairman Rubio. It is customers?
    Mr. Myhre. It is customers. Yes. Yes, and it is also loss 
of market, loss of revenues, those inflows or cash flows. Most 
small businesses do not have more than a couple weeks of 
reserves, and I would tell you that the majority do not have 
more than a couple of days. I mean, they are dependent upon 
yesterday's cash to fund today's, you know, operations. And so 
closing the business or not having that cash come in, that 
inflow of cash, is devastating to that business, and every day 
for that matter, for every hour that they are not open, is 
devastating to the continuing operation of that business.
    So the necessity of getting them that quick capital, that 
emergency capital to be able to make those repairs, to pay 
their employees, even when they are not in necessarily 
operation to retain that workforce, is so essential and if they 
don't have that quick capital--I mean I have seen small 
business owners leverage their credit cards and pull out 
everything that is that they can just be able to do what it is 
they can do in the immediacy to respond to helping them just 
keep operations going.
    Chairman Rubio. You know, a lot of the people that we talk 
to are unaware that the SBA offers non-business-oriented loans 
to homeowners, and I understand why that is confusing. People 
may not understand that, but what ideas would you have or 
suggestions you would make to us on how the SBA could do a 
better job of getting the word out that SBA disaster loans are 
also available to homeowners and not just to businesses?
    Mr. Myhre. So it is--you know, working out there in the 
field, this is one of the few things that I roll up my sleeves 
and actually get out there and get the nails dirty, your hands 
dirty in a sense, and working side by side with the folks that 
are out there, with FEMA and SBA, and listening to what it is 
and how they are conveying the messaging and the expectations 
of what individuals and businesses can get from the Government. 
It is really confusing.
    I mean, this typical Government siloing in a sense, and you 
know, I just have to share, you know, and in a special report 
that we did, there is this picture of this woman here. This is 
a picture from Mexico Beach, and this picture represents me 
walking up to a woman who was talking to a Federal official 
trying to get information about her home-based business, trying 
to get some direction about where she should go for assistance. 
She did not know which route to take, home or business, and by 
asking questions, that individual all they kept doing is 
reading from the talking sheets of their one-pager. They simply 
didn't relate to what the person was asking, and the person 
started crying. I walked over and I put my arm around her, and 
I said--you know, I learned her name. Her name is Catherine. 
Catherine, I don't know if I can answer your questions, but you 
know what? I am going to find out how we can get answers to 
your questions. And five minutes of just sitting there 
listening to her, I learned, I directed her, and we found the 
answers to her questions.
    I don't think that these people when they are out there in 
the field they are necessarily talking to one another, and I 
think the terminology or language that they use is extremely 
governmental, so it doesn't speak to the average individual, 
the average business owner. I think they need to greatly--for 
that matter, I think they need to go to their local SBDC and 
get a little help from their local professional marketing 
specialist.
    Chairman Rubio. That is a good suggestion. Actually, it 
will lead me to you, Mr. Rich. You know, I am curious, when you 
utilize the SBA programs, in your testimony, you were a former 
loan officer, and yet, despite that work experience, you still 
found the disaster loan application process difficult to get 
through. Can you tell us a little bit about what about this 
application process do you think was the most difficult, and 
what do you think would be the hardest aspect for someone who 
would lack your background in finance?
    Mr. Rich. Yes, sir. So it is kind of a multi-faceted answer 
so I will try to answer it as efficiently as I can. Initially, 
after the storm, our immediate concerns were security of our 
homes, security of our office, well-being of others to check on 
them. Immediately after the storm, we were not able to live in 
the house, initially. We had a place that was over in Walton 
County that ended up being with traffic. It was about three to 
four hours to get to Panama City each way every single day.
    Now, bear in mind that we also had a curfew in town as 
well. So we had to have--there are a very limited number of 
hours that we had of working hours through the day. We were 
unable to have internet connectivity. No power, no water, any 
of that. For the first few weeks of the storm, our focus was 
there and not necessarily the, you know, financial well-being 
of the business, although at some point in that time period our 
focus changed. For me to be able to go and talk to the folks 
about an SBA loan, I had to go--the first time I did it, I had 
to go wait in the line. I think it is about 40 minutes.
    So for me to take 40 minutes out of a 12-hour day that I 
was trying to get people stood back up, secure our property, 
and all that, it was a pretty valuable investment of time. So 
it was difficult to initially to find out about the programs, 
and the only reason that I really found out about it is because 
my wife had said something to me about hey, they offer these 
programs, you might go find out about it and see what it was. 
But I did not know much about them, was not sure what kind of 
things they could help with, but at the point where I did 
decide that I wanted to apply, I talked to a couple of the 
local representatives.
    Johnny Branch and Lynn Eichler were people that I knew in 
the community, that I trusted, and they were able to relay 
information to me about the programs and say, hey, this might 
work for your business, this might help you do this, this might 
help you do this. And so I decided to apply, and you know, 
again, I have been a loan officer. I am familiar with the 
documentation that was required. But bear in mind that I had no 
internet connectivity. I had a loss of documentation in my 
office at that time. It was very difficult to get to that 
information even if I knew what I wanted, you know.
    And then initially, I believe the loan program application 
deadline was, I think, mid to late November initially and then 
it was extended out to the beginning of December. By the time 
we had internet connectivity regained, had power back and those 
sort of things, it left me almost no time to get that 
information together. I had to make it the priority in my life 
to do it, right. And so I had a short window of time to get 
that together. Fortunately, I knew what I was doing. I knew 
what to look for, and we were able to get the loan going in. 
And that really was--the technological problems that we had to 
find out about the program, to find out, you know, what 
documentation was required.
    The amount of documentation that I was required to get was 
overwhelming, and I think that given what we have gone through 
in a disaster situation, I think there has to be a way to 
streamline what documentation is required because some of that 
is just unreasonable for us to be able to get together in a 
short period of time. If you offered the program today, sir, 
there are plenty of businesses out there that would be able to 
leverage off the benefits of the SBA loan program. I believe it 
is a good program.
    It just is time-consuming, and is, you know, more involved 
than I was initially expecting, and I think there are a lot of 
folks in our community that could benefit from it if some 
simple changes were made.
    Chairman Rubio. Right. I think you touch on two points in 
your testimony. One is just awareness. Sort of the sheer volume 
of different programs that are out there is difficult, 
especially in the aftermath of the storm where it is harder 
than ever to communicate sort of these sorts of things. Just 
knowing it is out there is the first thing, and something we 
will have to look at too, how we can create greater pre-event 
awareness of it. And the second is just even if you know it is 
there, utilizing it. And then so, you remind me of a story.
    After Irma, we were down in one of the communities in the 
Florida Keys and people were trying to apply for things. It may 
not have been with the SBA. It might have been a FEMA-related 
claim. And so FEMA, their thing was you have got to either 
email it, or I think they said you have to fax us the form, and 
I am like, well, there is no power. Well, that is the only way 
to take it. So that, you know, we do not take paper stuff. It 
has got to be online or, so there is a challenge there that 
some of the basic things we take for granted.
    Mr. Rich. Yes. I had to fax something to the SBA as part of 
my loan application, and for me to find a working fax machine 
in Bay County in November was crazy. I mean I ended up finding 
one somehow. One of the UPS stores had a working fax. I think 
they charged me $15 to fax something.
    Chairman Rubio. Patronis' left eye, well that is gouging.
    [Laughter.]
    Well, we will report that, but it is hard to find a fax 
machine anywhere anyway, so to begin with. And then just things 
we take for granted. How much of the files and records that 
people have today are stored electronically as opposed to in a 
paper cabinet somewhere? That is also something we take for 
granted. So the sorts of things that on a daily basis or not a 
big deal because you just do not think about it, suddenly you 
come to appreciate because you do not have power, and even if 
you have power, you do not have reliable communication or the 
ability to go online and find it.
    So that is an issue. I did want to ask sort of assuming all 
that was in place, and then the deadlines, as you said, I mean 
there does not seem to be a lot of synergy between the time, 
the power, and communication is restored, and the deadlines. 
They all invariably become extended, but they are not 
necessarily other than some--because somebody asked for it to 
be extended, not because we sort of build it into the matrix 
that you want to, you know, when you set the deadlines by when 
people who might need this program can actually use it. But 
assuming all that gets in place, one of the things I am curious 
about exploring, just to get your take on it giving your line 
of work and your experiences, eventually post-event, far enough 
that people have access to some basic things, some sort of a 
mobile app for SBA disaster loan assistance. So a one-stop-shop 
type mobile app that might make it easier for someone so they 
do not have to make that sort of drive, but can actually from a 
mobile device, not even, you know, a standalone computer, be 
able to at least get their name in the queue and get 
information access.
    Do you think that is an idea that is worthy of exploration, 
obviously, assuming, you know, that your internet connection is 
up, and your mobile devices are working, and then you have got 
power to charge it?
    Mr. Rich. Yes, sir. And I do think that the app would 
create a couple of benefits for sure, the first of which is 
getting to a computer in a post-storm situation like that would 
be difficult. A lot of the computers that we had in the office 
and the house were damaged, and so everybody always has their 
phones on them. So it is something that is actively on you. The 
likelihood of it being damaged is minimized, and plus the 
internet, you know, plus users nowadays, about 65 to 70 percent 
of all internet users use a mobile platform anyway. And so that 
is a preferred method for folks to be able to get information, 
and it is right there at the tip of your fingers. The other 
thing that it can do for you as well is push notifications, and 
so as I am progressing through the loan process, I am working 
toward application. It can push information out, tell me about 
deadlines, do those sort of things.
    So I think that that would potentially be very beneficial 
in those couple of ways. If you parlayed that into another idea 
that I have thrown around here locally is to create oasis 
hotspot zones throughout the city in order to mitigate issues 
in future storms. If you had strategic locations that maybe 
there were a dozen oases throughout the city that citizens knew 
in a storm situation that they could go to get connectivity, 
has underground fiber, you know, underground gas to power, a 
generator, you know, Wi-Fi hotspot there, you could have folks 
gathered at those places from the SBA to disseminate 
information about it. It could prompt them to install the app.
    There are a lot of technological things that we could do if 
we created these oases throughout the city, not just here but 
anywhere, so that citizens know that in the case of, you know, 
a bad situation like what we went through, they have a place 
they can go to and get connectivity, and check on loved ones, 
and make sure they are okay, and know, because we were not able 
to do that. You know, and that is the most basic level of 
communication we have, and we did not have it for weeks.
    So yes, it certainly is, you know, the app is a big help 
and I think there are ways to combine that with other thoughts 
to really improve the disaster response.
    Chairman Rubio. Yes. Again, it is sort of where disaster 
response is lagging behind the world we live in today, and you 
know, one of the local television stations here, how I kept up 
with what was happening on the ground was they were 
broadcasting during the middle of the storm on Facebook live, 
and I was watching it on a mobile device of all things, 
obviously.
    But the sheer volume of transactions, not to mention the 
way people are gathering and communicating on information, is 
increasingly moving toward that mobile device, and less and 
less from a standalone device much less--you know, even the 
television. Although I must say I envy that screen right there 
with football season just around the corner. Where did they buy 
that thing?
    [Laughter.]
    But the sheer amount of television broadcast information 
that is being consumed on a mobile device. Even just getting 
information out about everyday topics to the general public, 
allowing people to sign up for alerts from the local 
Government, all sorts of things. And I think Government 
certainly is behind the curve on moving to some of that. I 
wanted to ask you what about one more thing and that is the 
disbursement process. Was it in line with what you were 
expecting in terms of the from application to the disbursement?
    Mr. Rich. It was not, sir. And that was, I think, probably 
my thing about the SBA loan process that maybe I was most 
surprised with. We initially got a small disbursement upon loan 
closing. I am very good at filling out paperwork. I get things 
back as soon as people ask for it and all that, and I have done 
so the entire process.
    Chairman Rubio. How was it disbursed? Was it a paper check? 
Was it an electronic check?
    Mr. Rich. The first one was a paper check. The second batch 
in----
    Chairman Rubio. In the mail?
    Mr. Rich. Yes, sir.
    Chairman Rubio. Okay.
    Mr. Rich. Yes. So the first one was a paper check----
    Chairman Rubio. As opposed to like just sending it to you 
on a mobile app?
    Mr. Rich. Well, I had--it is funny you asked because I had 
an electronic deposit form that I filled out. I had emailed it 
to them. They told me that I had to get it to them through fax 
and that was part of the faxed paperwork that I sent through. 
Upon faxing it, I still did not--it did not get to the right 
department, and so when I came to get the second disbursement, 
they still did not have the right electronic form.
    So I then had to figure it all out again and fill out again 
to do that. But again, that was just kind of the disconnect on 
the SBA side, that way. But yes about the timeline, and when we 
got that initial disbursement, I guess I did not understand why 
or how they do not disburse the entire amount, because when we 
were in the situation we were in, it was really what we needed. 
You know, I would not have asked for the money if I did not 
need it then, right. And so we had to wait for a majority of 
the money that we got from the SBA loan until the beginning of 
March.
    And so it was five months after Hurricane Michael before I 
got really the lump sum of the SBA money, which at that time it 
still helped, but I could have responded so much faster to 
fixing our building, getting our business back on track, if I 
would have had it in middle of December when we closed on the 
loan.
    I just do not understand why there is, where there is an 
initial amount, and then you get the remaining portion of it. I 
think that is maybe something we could look at and change 
because the folks that go through what we went through--I mean, 
there is a reason we ask for the money, and that we need it, 
and we can be whole again. And by the time I had the money, 
contractors were backed up months. And I mean like three to six 
months for folks to do things. And again, we still have repairs 
on our building that we need to make. It is non-essential 
stuff, but I would like to be whole again at some point.
    Chairman Rubio. And, Mr. Myhre, I know that is not your 
department, but do you have any insight? Have you heard the 
same complaint about the disbursement process?
    Mr. Myhre. Yes, and I mean it is, you know--and I think you 
actually are probably one of those better positions. I mean 
some of the horror stories we hear, there are still businesses 
that are still going through that process of, you know, SBA 
coming back and asking for additional documentation, or, you 
know, it is in this department, and it needs to go back to this 
department because they, you know, changed a letter or word, 
you know, somewhere in the documentation.
    There are horror stories out there, you know, and we have 
tried to create a liaison within, you know, to try to be 
responsive to the businesses in which the SBDC is working with 
as they come to us expressing those frustrations and the Office 
of Disaster Assistance. That has worked pretty well in finding 
out what the root causes are and trying to respond to them and 
those particular issues. But this is a key reason on why many 
businesses don't go to SBA after a disaster and seek business 
disaster assistance.
    The study that we did with the Federal Reserve actually 
showed that half of the businesses go to other means because of 
the need for the quick capital. They go to the private sector, 
even if it is more expensive for them to seek that disaster 
assistance for capital, they will go to the private sector and 
find it, rather than go through the Government processes 
knowing that it is going to take a long time and who knows 
whether or not they are going to be successful.
    Chairman Rubio. Yes. It is funny though if you owe the 
Government money, they move pretty quickly on that stuff.
    [Laughter.]
    You have noticed that the payment systems are faster than 
the payout system. And Colonel, let's talk a little bit about, 
I mean, it is impossible to be anywhere near here and not hear 
the mention of Tyndall. In fact, if there has been no benefit 
to the storm but I will say there is a very thin silver lining 
that has given us the opportunity to express to our colleagues 
the importance of this facility. And as more of my colleagues 
around the country have sort of learned the unique mission and 
the strategic importance from a geographic standpoint of the 
facility. That has been good. It has been good to see the words 
Tyndall out of the mouth of the Vice President, out of mouth of 
the President, because ultimately the more attention you get, 
the more people know how important you are, and the more 
committed they become to being a part of rebuilding it because 
of its unique mission and its unique location.
    And there are a lot of reasons why the location is unique. 
Some of it, we don't discuss, publicly others you can, but the 
point being we are really blessed to have it not just here in 
Florida, but for the Nation. And I think this is not an 
audience that needs to be told the economics attached to the 
base and why it matters, but I do think people are very curious 
to see what the years to come, assuming everything continues 
the way it should, you know, the appropriate funding. You know, 
we hope to pass an appropriations bill as opposed to a 
continuing resolution because it allows us to program and 
contract and plan out moving forward.
    So assuming all that continues to move forward, the F-35 
program continues on pace and so forth, what happens over the 
next three to five years? What is it going to look like? What 
is it going to feel like, because I think people are really--
they need to see that future that lies ahead and to get excited 
about it. So if you can walk us through a little bit about what 
the future looks like for Tyndall and how things are going to 
progress, assuming we do our job and get things done?
    Colonel Laidlaw. Yes, sir. Thank you for the opportunity to 
answer that question. I will say, most probably agree that the 
initial recovery at the base was incredibly fast. The Air Force 
and many others jumped in to get us aid as quickly as they 
possibly could. And I will tell you that we have done the best 
that we can, boots on the ground, to maintain that momentum for 
the last 10 months. But as you alluded to earlier and as some 
of my colleagues here alluded to earlier, it is never fast 
enough.
    So we are doing the best we can to maintain that momentum. 
I will say that some of the things that we have accomplished 
over the last 10 months I think are indicative of what we can 
expect, at least for the foreseeable future here. And I would 
like to share some of the things that we have done. I will say 
first that we met or exceeded all the Secretary of the Air 
Force's aggressive timelines from mission restoration across 
our many mission sets at the base. We have most of our people 
back doing the missions that they were doing.
    So a lot of the things, to your point, that we have done 
for a long time at Tyndall, we will continue to do at Tyndall 
because it is such a unique base that does so much for our 
Nation. I would say in less than six months, we completed a 
master plan. It would normally take us 18 months. So that 
master plan maps out where we intend to take the base to ensure 
its relevance and its ability to increase readiness across the 
force for the future. We have identified our requirements and 
are on track toward $648 million in recovery and repair 
projects by the end of September. So you are going to see an 
increase in construction. A lot of work going on at the base--
--
    Chairman Rubio. Just go into detail about the kinds of 
construction that we are talking about, the housing, the 
operational buildings?
    Colonel Laidlaw. Yes, sir. So I would say divide them into 
two categories. As you are well aware, we have got FSRM type 
projects. So those are our recovery type projects, buildings 
that we know we are going to keep need new roofs, need of 
replacement, those types of projects. Those are ongoing and 
they have been ongoing for the last 10 months.
    With the additional money that we got during the 
supplemental that enabled us to continue with that long list of 
projects that we had, we had put some on hold for a while as we 
waited for the supplemental, but we are back doing those again. 
The second type of construction----
    Chairman Rubio. I hate to interrupt you. On the rebuild, 
are we rebuilding to a standard that would withstand, more 
resilient to future storm event?
    Colonel Laidlaw. In terms of what standards we are 
rebuilding to?
    Chairman Rubio. Yes.
    Colonel Laidlaw. Yes, sir. Great question. So what I will 
say, as part of the process of building that master plan, one 
of the things I asked my team to do was to travel down to South 
Florida. We talked to the city planners in Miami-Dade County. 
We talked to Homestead Air Force Base. We ask them, how do they 
design their buildings? What are the various wind loads that 
you do in an area that is very prone to high winds and big 
storms? We have baked all of those lessons learned into the 
project list that we built into, we call them the 1391s. That 
is the blueprint for the projects that we have.
    And on August 5th, we submitted to the Congress, our list 
of rebuild projects, which are in that second batch, which is 
the military construction. Our estimate right now is that the 
cost to rebuild the roughly half buildings that we lost in the 
base is approximately $3 billion, and assuming we get the 
funding required to make that happen, we think we can do that 
in about 5 to 7 years on the base.
    Chairman Rubio. Okay. You were saying the second bucket?
    Colonel Laidlaw. Yes, sir, that was the military 
construction bucket. So, right, the FSRM is predominately what 
you see going on the base today, all the repairs that are going 
on. We hope to get into the design phase next for the military 
construction, and then for the next five to seven years is when 
you will actually see the new buildings start to pop up from 
scratch.
    Chairman Rubio. Including an order to serve us the new F-35 
mission?
    Colonel Laidlaw. Yes, sir. So a lot of people ask the 
question, how long will it be before you get full recovery at 
the base? And I think full recovery is going to mean different 
things to different missions and different people at the base. 
There are certain fence posts that we have to meet. Our 
secretary has told us to be ready for the first F-35A aircraft 
arrival in the fall of 2023. What that is going to do is drive 
a certain minimum number of military construction projects that 
we need to prioritize with the funding that we do get to enable 
that we can meet that mission set for our Air Force. So 
projects like that, we will be ready, and we can manipulate our 
timeline to ensure that.
    Chairman Rubio. Now, if you could describe, and I mean 
obviously there are significant operational differences between 
the 35 and the 22, but what does it mean to this operation, the 
personnel levels, the mission set, how does that mission look 
different, an F-35-focused mission compared to the mission we 
currently have and before?
    Colonel Laidlaw. Yes, sir. Sir, so what I would say to most 
of the local community, most of the base population, the 
differences in mission between the F-35 and the F-22 are going 
to be largely transparent. That does not mean to imply that the 
aircraft do the same things. They are both designed to do 
completely different things from an operational perspective and 
what they do for our Air Force, but as you are well aware, 
since 1951, Tyndall Air Force Base has been a fighter base.
    We hosted every generation of fighters, from the Korean War 
era to the century series aircraft, a long time fourth-
generation fighter base with F-15s and F-16s. We have had F-22s 
at the base, fifth-generation fighters at the base. So to the 
majority of people who live at the base, work at the base, 
around the base, they are just going to see fighters operating 
in large numbers at Tyndall like they always have since 1951 at 
Tyndall Air Force.
    Chairman Rubio. But in terms of the economic impact of the 
operation, given not just the nature of the fighter but its 
technological advancement, will it require more--will it mean 
more people, more personnel, the sort of things that could have 
a positive impact, not to mention you want to be associated 
with an ongoing and existing and funded program, and not a 
legacy platform or something that is flattened out.
    So just economics, what it would mean because you can make 
the argument, could you not, that being tied to--I know you 
have flown the 22, but does it tie to the 35 given the fact 
that it is the crown jewel of our system? And multiple branches 
and partner nations are using it. I would argue for the long-
term viability in the economy locally is a positive 
development. So what does that look like economically in terms 
of long-term number of people, visitors, things of that nature?
    Colonel Laidlaw. Yes, sir. A lot baked into your question 
there. I will start by saying in terms of economic impact, as 
we look back at the last three times that we have done a 
detailed economic impact analysis at the base, the sort of 
seven-year period prior to the storm, what we found is we very 
consistently contribute about $600 million a year to the local 
economy using the Commerce Department standards for 
calculation.
    A significant factor that contributes to that overall 
economic impact is the base population, both between our 
payrolls that we have a number of people assigned, as well as 
the number of indirect jobs that that base population supports 
in the local community. As we look to bed down up to three 
squadrons of F-35As, according to the Secretary of the Air 
Force's timeline, we are going to go through a detailed process 
that steps through all of what those requirements are. And what 
one of those--part of that process does involve personnel, how 
many people is it going to take to do it.
    So I don't know at this point what the exact number is 
going to be. Initial estimates that I have seen for the MQ, 
between the MQ-9 potentially bedding down at the base and the 
F-35 potentially bedding down at the base, each of those 
programs will probably be somewhere between 1,200 and 1,800 
additional people coming to the base that are, it may not be 
all of them, but--so we will figure those numbers out as we go 
through that process. We are not there now but suffice to say 
it will be more people on Tyndall Air Force Base in the future 
than we have on Tyndall Air Force Base today.
    And more people equates to, according to the Commerce 
Department's calculus, more of an economic impact. I would say 
I think it would be premature at this time for me to try to 
speculate on exactly how many people, and put those numbers 
through the calculators, and give out an overall economic 
impact. What I will say is, as we look to bridge from where we 
are today to what those future missions will look like, as we 
go through that rebuild that we talked about--I did ask our 
team to crunch some of those numbers. What do we think the 
economic impact is going to be in 2019?
    So as you look at the influx of contractors, the influx of 
construction, we expect the impact this year alone to be over 
$1 billion. So what I would say is we have always had a 
significant impact. I expect a bump over the near term just 
based on the reality of where we are. And as we look to the 
long term, there are no indications that that economic impact 
is going to decrease in any way. If anything, I think it would 
be a much safer to suggest it is probably going to increase.
    Chairman Rubio. And I am only asking because I know there 
is still, for the layman, the everyday person, the fear is 
that, you know, Tyndall, God forbid, could be taken away or 
downsized, and what I hope people will take away is that if we 
can continue forward and stay focused on the mission that has 
been created and plan for it long term, obviously Congress has 
to do its part to step up and fund it, make it work, we are 
going to see a combination of things that are going to be 
positive for the region.
    In the short term, there is a lot of work associated with 
the rebuild because I imagine all of this construction will 
require local sourcing so there will be a sort of a short-term 
rebuild boost that comes from it. And in the long term, a 
larger, at some number--it will actually be a bigger base tied 
to a program that is critical to our national security with a 
lot of new buildings and recent spending, thereby sort of 
locking in the future of the base for the foreseeable future in 
a way that should give the community a sense of security. 
Again, we got to do our job and make sure this is funded. We 
cannot mess it up by creating inconsistent funding streams that 
delay us in any way.
    But this, if it works, won't just be as good as--it is safe 
to say that if it all works out, I am going to say it anyway 
because I think it is true, Tyndall will not just be as good as 
it used to be, it will be bigger and better and more important 
than it was before the storm. And I think that is a very 
positive development for the community. And that is why I think 
it is important to talk about that and point to it. I wanted to 
ask you one more question. You have many dedicated and you have 
many talented service members who call this area home, many of 
them come back and so forth.
    Tell us a little about how they are doing. They were also 
uprooted and disrupted and offer any personal stories that you 
may think about, without violating anybody's privacy though, 
that will sort of help draw attention not just to the area but 
to the kind of people that serve our Nation in uniform or 
support those serving in uniform.
    Colonel Laidlaw. Yes, sir. Thank you very much for asking 
that question. I will say we do have many dedicated talented 
service members who do call this area home, and I am proud of 
every single one of them for what we have been. The Airmen and 
their families who I talk to every day truly express a sense of 
purpose and show so much resilience, but in reality, this is 
true for our friends and neighbors in the local community as 
well.
    We are absolutely in this together, but I think all of us 
both inside the gate and outside the gate will admit that it 
has been a long 10 months. I really would like to share just a 
few examples that I think represent stories that are repeated 
across Bay County for us, our friends, and our neighbors. Like, 
for example, Senior Airman Ingle and his wife Libby, they were 
expecting their first child when the storm severely damaged 
their off-base home. Like so many others in our community, the 
Ingles lived in a 5th wheel camper in their driveway until they 
had the opportunity to fix their house. Thankfully their family 
of three now is moved back into their house and they are doing 
very well.
    Another example is Staff Sergeant Monroe. He and his family 
of seven used to live on base, and like all base residents 
after the storm, they had to relocate when the storm destroyed 
their home. The Monroes are actually now a family of eight and 
the decision they made is they decided to buy a house. They 
bought a new house here in Bay County and the family of eight, 
the Monroes, they are doing great today as well. We have got 
others like Sergeant Simmons and his family. He has got a wife 
and a daughter. Despite the damage to their home downtown, they 
recognize the need and they opened their doors and they provide 
quarters for some of our single Airmen who we needed on the 
base.
    A story I like to tell is some of our support Squadron 
Commanders. They used to be neighbors on base, in base housing. 
After the storm, they salvaged what they could from their 
homes, and then they moved their families to another location 
so that they could concentrate on recovering the base just 
temporarily. These Commanders became neighbors again, this time 
in our base campground. They chose to live in RVs. This kept 
them closer to the base so that they could continue to lead 
their Airmen. We also have a young Lieutenant who is a Finance 
Officer and she also happens to be a single mom. When the storm 
damaged her home, she chose to take her daughter up North to 
live with her grandmother for a short time. We needed her at 
Tyndall to help our Airmen and their families to make sure that 
they got paid after the storm.
    Today, Lieutenant Evora is back in our house and so is her 
daughter, and she just started pre-k two days ago here in one 
of Bay County's schools. They too are also doing very well. So, 
yes, sir, I appreciate the question. It has been a challenging 
10 months for so many of us who live here in Bay County. 
However, the words I rarely hear in this town are, I need. 
Instead, everywhere I go I continue to hear, how can I help? 
The spirit of resilience and sense of purpose, I think, bodes 
well both for the future of Tyndall Air Force Base and for the 
community that we are lucky enough to call home. So thank you, 
sir, for that question. I appreciate that.
    Chairman Rubio. Thank you, and just as a side note, on 
behalf of our local restaurants and pubs and other facilities, 
they want to know if the F-35 pilots are as rowdy as the F-22 
pilots?
    [Laughter.]
    Colonel Laidlaw. Sir, I will take that one for the record.
    [Laughter.]
    Chairman Rubio. Well, we can't wait till they are here. And 
Speaker Bense, I wanted to--I would love to hear a little bit 
more about just, you know, what life is like for people in 
business and the community, and again, it is not that this 
community needs to be educated about what life was like in 
those early days, but if you could tell us what was it that you 
saw in those early days after the storm that led you to start 
up Rebuild 850?
    Mr. Bense. Clearly a lot of devastation. There is still a 
lot of devastation out there. The world has changed a lot 
around here, and Colonel, thank you again for what you are 
doing at Tyndall. Ultimately the base will be beautiful and 
state of the art, which is going to be great for our community. 
I know, we all here know how much Tyndall does for our 
community. Thank you very much for what you are doing. It is 
still complicated around here. We have people that have not 
gotten their insurance settlements, or, if you could slap the 
insurance companies around a little bit, that would be very 
helpful. I am saying that in jest. Well, I don't know, some of 
these folks may say----
    [Laughter.]
    But I mean just delayed settlements are keeping people from 
rebuilding their home. That is difficult. A lot of homes have 
not even begun to be rebuilt, not just because of insurance but 
because they had no insurance. They are lost. They are living 
in 5th wheel campers. They are living in RVs. Again, it is 
three to five years. I just saw a lot of bad things going on 
and knew that just to tell you how much the rest of the State 
does not understand about what happened here. We did a survey, 
850 did a survey, 47 percent of the people in Florida do not 
even know we had a Category 5 hurricane. They do not understand 
that. And by the way, your efforts to get that upgraded to a 
Category 5, I know that is not easy.
    Chairman Rubio. We tried for 6 but they didn't have that 
so.
    [Laughter.]
    Mr. Bense. It is not as easy as everyone thought it was, 
and I know you were at the forefront. And that is, as we all 
know in this room, getting a bump to a Category 5 was very big 
and very important for us. But 47 percent of the people do not 
understand we had a Category 5 hurricane, 55 percent of the 
people in Florida think we are already rebuilt, that everything 
is all wonderful. I would be inclined to say that probably, and 
the Colonel knows more about that than I do, we are still 
probably maybe at best 50 percent rebuilt.
    And when asked if they would contribute money to help 
Northwest Florida, only 23 percent of the people said they 
would help. So we are clearly off everyone's map, and we are 
off everyone's radar map. We were already having a hard time to 
begin with because of our regional proximity within the State 
but that is what really pushed us to get Rebuild 850 started, 
and to try to bring, frankly, money from other parts of the 
State, big money, that can be used to help locals. So we have a 
long way to go. It is tough. The workforce is difficult.
    A lot of out-of-town laborers that are here, but we need 
more. It is just--I am not trying to be all doom and gloom. It 
clearly is better now than it was 10 months ago, but we have 
got a long way to go.
    Chairman Rubio. Yes, and that is the second point I wanted 
to touch on just because I know you have been in business for a 
long time, particularly in contracting work. You have heard the 
Colonel talk about all the work that is going to be happening 
on the base over the next five to seven years, plus all the 
general need for rebuilding and the like, and it is kind of a 
catch-22. You cannot rebuild the housing without the labor, but 
you cannot find the labor without the housing.
    Mr. Bense. That is right.
    Chairman Rubio. And I am not sure what work can be done or 
anyone is looking at how to sort of square that up because that 
is going to be a huge challenge in the years to come. I know 
talking to the Department of Defense, one of our concerns, and 
other local projects, is the flexibility. You know, we have the 
big shipbuilding contract not far from where we are sitting and 
that has been something we have been fighting, working on, is 
we need flexibility in these programs because labor costs have 
gone up, availability of labor, the schedules are harder to 
keep. It is harder to stay on track when you don't have enough 
workers, but those workers themselves have been displaced and 
have things going on.
    So I just view that as one of the--we can provide all the 
money in the world to some extent, but if the labor is not 
there, you cannot mechanically get the job done because of 
these underlying facts. It is going to delay everything and 
potentially threaten it. Is anyone sort of looking at how to 
make that function, because it sounds like one of the real 
things we should be concerned about.
    Mr. Bense. I think you have got to give some of them, 
especially housing agencies, some flexibility. I have a saying, 
and many people think I am crazy when I say it, and that is in 
my businesses, a bad decision beats no decision. And they say, 
what? Because generally speaking people are going to make the 
right decision. They are going to make the correct decision. If 
you do not make decisions in life or in business, you are never 
going to be successful. And if I am not around to answer a 
question, I give the flexibility, you make the decision, and 9 
out of 10 times they make the right decision.
    But you have got to give your HUD folks, you have got to 
give those folks, a little bit of leeway to make quicker and 
better decisions. Will some of them be wrong? Sure and I know 
in Governments it is very difficult if you make a bad decision, 
you know, your head comes off the chopping block. But I would 
push that, you know, make decisions. If they are not perfect, 
look we will give you a pass, but there are folks out there 
that are hurting.
    Chairman Rubio. Well, I know we are almost out of the time 
that we have allotted for this, and I want to thank everybody 
that has been a part of this and has been here today. You know 
this--you talked about the sort of forgotten nature of the 
storm. I think perhaps maybe to explain that, while I do think 
that the geography and location of Northwest Florida have 
contributed to it, in general, we live in a society where, my 
goodness, I mean whatever was leading the headlines a week ago 
is very different within 72 hours and moves along very quickly.
    It is one of the things I have said, but the problem is 
that, and even after you cosmetically recover, like there are 
no holes on the ground, people have electricity, these storms 
leave behind these deep economic scars that sometimes alter a 
community. I can tell you from being in South Florida. I was in 
Government then, but we lived through Andrew, you know, the 
loss of Homestead Air Force Base. To this day, South Dade is 
recovering from the impact of it. They lost--the Cleveland 
Indians left. They were supposed to go there for spring ball.
    So to this day, you can point to things that happen in that 
community as a result of it, and that is just one example. 
There are other places where the very character and nature of a 
community is altered by these storms in ways that do not 
necessarily play out very easily or are easy to explain on 
television but have a permanent effect on a region for years to 
come. The one thing I will tell you in the visits that I have 
had up here in the time that I have been able to stay here, and 
by the way, we have been coming to this part of the State about 
every other Fourth of July for over a decade so we do have a 
point of comparison for it, and is that the one thing you do 
have going for you is a tremendous sense of community, and that 
really matters. People are deeply anchored in the community, 
and many for generations and they want to fight not just to 
preserve it but to continue to grow it and to expand it. And 
that makes all the difference in the world. People want to stay 
here.
    Frankly, I think more people are going to want to come here 
if things get right, and so that is a big part of it. And the 
other is the gaps that Government doesn't fill, and that is, 
and you have described it somewhat, Colonel, and a lot in your 
testimony that you gave about some of the servicemen and -women 
who wear uniform and those who support them as well, the 
neighbor taking care of neighbor as if they were family. That 
that part of it, no Government is telling you to do that, you 
do it because it is the right thing to do. And this part of our 
State has that in abundance. And without those two things, that 
deep sense of community and that sort of people taking it upon 
themselves to offer assistance to others, things would have 
been far worse than they are.
    And I think those are the two things that are going to help 
the region not just rebuild but be stronger than ever. And so, 
what I said at the beginning and I mean it, this is not going 
to be the Forgotten Coast. There is too much happening here 
that is of importance of the country and to the State for that 
matter, but we got to stay on it and that means stay on in 
Washington to make sure that the funds are flowing and that the 
programs are being prioritized, stay on it to improve our 
systems because it is possible that we could face other 
challenges over the next five to seven while the rebuild is 
still taking place so we are going to have to jump all over and 
make sure it doesn't get in the way. And when it comes to small 
business, not just to the ones who have been able to survive, 
but the new ones that are going to be started.
    We have an obligation as well to ensure not just that the 
recovery moves forward, but that we improve the ways these 
programs work so that they are easier to access, that they are 
easier to use, that they become useful, that people don't have 
to sort of look out for what we get when these storms happen 
and they deploy a bunch of folks from behind the desk to come 
down and be of help, and we do not begrudge anyone, but in the 
customer service business, you got to be able to talk to people 
in a language that makes sense as opposed to reading from a 
manual.
    So we do have ways that we need to improve in terms of 
providing people knowledge and awareness not just about what is 
out there, but helping them to navigate it, and not just 
handing them a pamphlet. So we have got a lot of work to do in 
terms of what this committee has jurisdiction over with the 
SBA, and then not just for the Senate but the State along with 
Senator Scott, it is a priority for both of us. He is going to 
be here in a couple of weeks as well. I believe doing a 
roundtable at Tyndall. And every chance we get to talk to the 
President, we are going to remind them of the region and the 
importance of it.
    It was great to see Air Force One touch down here not too 
long ago because it proves the runway is long enough and just 
to be able to tour it. And those things really matter. They are 
important and we are going to continue to work on that. And we 
are fortunate that we have strong bipartisan support. The 
Chairwoman of the Military Construction Committee is from the 
Democratic party. She is from Florida, Debbie Wasserman 
Schultz. She is committed to it. She is from Florida. So that 
helps. I mean, these are not partisan issues. There is a State 
commitment to this that all of our delegation across the State 
is committed to and that is very helpful. And the chairman of 
the Relevant Funding committee in the Senate is a good friend 
of mine, Senator Boozman, who has made a commitment to being 
helpful to us as well.
    So, like I said, we have a lot to be optimistic about. We 
have a lot of work to do, but your testimony here today is very 
important. It will be part of the record as we work. And what 
we will do, so you know, is the testimonies is what we point to 
when we make legislative proposals to our colleagues. So they 
understand where it came from. It is not something we made up. 
It is something that came from direct testimony.
    And so that is why it is important. I would add here in 
closing, and this is important, the record is going to remain 
open for two weeks for this hearing and if any members of the 
committee have any questions that they may have, they will 
provide it to us and to the extent you are able to answer them 
so they can become part of the record. We ask for your help to 
make it easy.
    If you want to make any additional statements for the 
record that you were not able to make here today, something 
that came to mind after the fact, submit that to us as well so 
we can make sure it is part of the record because we do use 
that record. We point to it every time when we do something or 
we propose something, we point to it and say, this is where it 
came from, and it makes it easier.
    So that record is going to remain open until the 28th of 
August at 5:00 p.m., 5:00 p.m. Eastern time, 4:00 p.m. for you 
guys.
    So with that, thank you so much, everybody, for being here. 
We appreciate it. And with that, the hearing is adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
  

                          [all]
</pre></body></html>
